Peac e Corps
Office of Inspector General




                              Office of Inspector                        Office
                                                                         202.692.2900
                                                                                            Hotline
                                                                                            202.692.2915 800.233.5874
                                                                         peacecorps.gov/OIG Online Contact Form

                                   General                               OIG Reports        OIG@peacecorps.gov




To:                           Aaron Williams, Director
                              Dick Day, Regional Director, AF
                              Daljit Bains, Chief Compliance Officer

From:                         Kathy A. Buller, Inspector General

Date:                         July 6, 2012

Subject:                      Final Report on the Program Evaluation of Peace Corps/Uganda (IG-12-06-E)

Transmitted for your information is our final report on the Program Evaluation of Peace
Corps/Uganda.

Management concurred with all 26 recommendations. Based on the documentation provided, we
closed seven recommendations: numbers 2-5, 11, 24, and 25. In its response, management
described actions it is taking or intends to take to address the issues that prompted each of our
recommendations. We wish to note that in closing recommendations, we are not certifying that
the agency has taken these actions or that we have reviewed their effect. Certifying compliance
and verifying effectiveness are management’s responsibilities. However, when we feel it is
warranted, we may conduct a follow-up review to confirm that action has been taken and to
evaluate the impact.

We wish to acknowledge the post for the thorough and relevant documentation it provided in
response to all 26 report recommendations.

19 recommendations, numbers 1, 6-10, 12-23, and 26 remain open. OIG will review and
consider closing recommendations 1, 6-10, 12-16, 18-23 and 26 when the documentation
reflected in the agency’s response to the preliminary report is received. For recommendation 17,
additional documentation is requested. Our comments, which are in the report as Appendix C,
address these matters. Please respond with documentation to close the remaining open
recommendations within 90 days of receipt of this memorandum.

You may address questions regarding follow-up or documentation to Assistant Inspector General
for Evaluation Jim O'Keefe at 202.692.2904 or to Senior Evaluator Susan Gasper at
202.692.2908.
Please accept our thanks for your cooperation and assistance in our review.

Attachment
cc:   Carrie Hessler-Radelet, Deputy Director
      Stacy Rhodes, Chief of Staff/Chief of Operations
      Elisa Montoya, White House Liaison/Senior Advisor to the Director
      Bill Rubin, General Counsel
      Lynn Foden, Chief of Operations, AF
      Krista Rigalo, Chief of Programming and Training, AF
      Esther Benjamin, Associate Director, Global Operations
      Edward Hobson, Associate Director, Safety and Security
      Brenda Goodman, Deputy Associate Director, Volunteer Support
      Sonia Stines Derenoncourt, Director, OPATS
      Loucine Hayes, Country Director, Uganda
      Uganda Country Desk
Peace Corps
Office of Inspector General




  Volunteer and School Children in Mayuge District, Uganda




                      Flag of Uganda


Final Program Evaluation Report:
       Peace Corps/Uganda
          (IG-12-06-E)
                                                             July 2012
                               EXECUTIVE SUMMARY
Over 1,000 Peace Corps Volunteers have served the people of Uganda since the program was
first launched in 1964. The program was terminated in 1972 due to the civil unrest during Idi
Amin’s presidency, was reopened in 1991, and was again suspended in May 1999 because of
security issues. Volunteers and a full staff returned in 2001. There are currently three project
sectors in Uganda: education; community health; and economic development. At the onset of this
evaluation, 147 two-year Volunteers were serving in diverse community settings in Uganda.

Since September 2009, PC/Uganda (hereafter, “the post”) has had five acting or appointed
country directors (CD). This significant senior leadership turnover has negatively impacted the
quality of post programming and Volunteer safety and security systems and procedures. The
changes in leadership also brought different visions, different styles and different standards and
expectations for the program, the Volunteers and staff. Over the same period of time, Volunteer
numbers increased and the post expanded into new geographic areas, including into northern
Uganda where Peace Corps has not had a presence since the 1970s.

The CDs’ very different philosophies on development, such as the use of PEPFAR funding and
whether or not to use grant funding, has impacted how resources are directed to projects and the
extent to which grant opportunities have been publicized to Volunteers. Volunteers reported that
CDs have not enforced rules consistently, which has created an environment where Volunteers
inconsistently follow rules. Administrative gaps, such as regularly performing staff annual
performance appraisals, also surfaced.

Uganda presents a challenging security environment. Though the post has safety and security
systems in place, many components have not received sufficient attention. Our evaluation found
deficiencies with consolidation points, site locator forms, emergency action, and medical
evacuation plans. We found that Volunteers were not reporting crimes and that the U.S. Embassy
regional security officer was not receiving crime incident reports through Peace Corps’ reporting
system. We also found that some Volunteer sites did not have reliable access to approved
transportation, and that medical and health factors were not sufficiently considered when
developing Volunteer sites.

The post is developing the building blocks for solid and strategic programming and has made
modifications to the programming and training staffing structure. While its program is moving in
the right direction, we identified some areas for improvement at the post. The education project’s
structure, with two sub-components and differing project activities, has impacted the
effectiveness of technical training and Volunteer support. Volunteers, especially those in the
primary education project, reported that technical training is not practical. The post does not have
project advisory committees and does not publish an annual report for stakeholders.
Additionally, the post has identified some challenges to its “Focus In and Train Up” (FITU)
strategy which seeks to scale up a limited number of highly effective projects while concurrently
undertaking new strategic partnerships and initiatives. Our report contains 26 recommendations,
which, if implemented, should strengthen programming operations and correct the deficiencies
detailed in the accompanying report.


Final Program Evaluation Report: Peace Corps/Uganda                                                  i
                                                    TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................................................................................ i

HOST COUNTRY BACKGROUND ................................................................................ 1

PEACE CORPS PROGRAM BACKGROUND ................................................................ 1

EVALUATION RESULTS ............................................................................................... 3

        M ANAGEMENT C ONTROLS .............................................................................................................................3

        VOLUNTEER SUPPORT ....................................................................................................................................5

        P ROGRAMMING ............................................................................................................................................ 10

        T RAINING ...................................................................................................................................................... 22

        P RESIDENT ’S E MERGENCY P LAN FOR AIDS R ELIEF (PEPFAR) ............................................................... 25


OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 27

INTERVIEWS CONDUCTED ....................................................................................... 28

LIST OF RECOMMENDATIONS ................................................................................. 31

APPENDIX A: LIST OF ACRONYMS .......................................................................... 33

APPENDIX B: AGENCY'S RESPONSE TO THE PRELIMINARY REPORT ............... 34

APPENDIX C: OIG COMMENTS ................................................................................. 48

APPENDIX D: PROGRAM EVALUATION COMPLETION AND OIG CONTACT .... 50
                        HOST COUNTRY BACKGROUND
Once known as the “Pearl of Africa”, Uganda is a landlocked country situated to the west of
Kenya, east of the Democratic Republic of the Congo (DRC) and borders Rwanda, South Sudan,
and Tanzania. The colonial boundaries created by Great Britain grouped together a wide range of
ethnicities with different political systems and cultures. Uganda peacefully achieved its
independence from Great Britain in 1962.

Uganda has had a tumultuous history. Shortly after independence, Prime Minister Milton Obote
suspended the constitution and ruled by martial law until a military coup in 1971 brought
General Idi Amin to power. Amin’s dictatorial regime (1971-1979) was responsible for the
deaths of 300,000 Ugandans. Obote regained power during a civil war that extended from 1981
to 1985, a period when government troops carried out genocidal sweeps of the rural populace.
After years of civil war, Yoweri Museveni, with the support of the National Resistance Army,
claimed the presidency in 1986. Credited with democratic reform and some enhancement of
human rights, Museveni was re-elected in 2001; a constitutional change smoothed Museveni’s
way to a third term in 2006.

Presently, Uganda is subject to armed fighting among ethnic groups, rebels, armed gangs,
militias, and various government forces that extend across its borders. Uganda hosts Sudanese,
Congolese, and Rwandan refugees, and Ugandan refugees as well as the cult-like Lord's
Resistance Army seek shelter in southern Sudan and the DRC.

English is the official national language. Luganda is the most widely used of the Niger-Congo
languages and is preferred for native language publications in the capital. With three major
linguistic families and about 50 distinct languages divided among them, language tends to define
the boundaries of cultural differences in Uganda.

Uganda has the world’s third highest birth rate; 50 percent of its population is 14 years old or
younger. Education is highly valued in Uganda. As a result of the government’s commitment to
universal primary education, the main concern is no longer access to primary education, but
rather the quality of it. During Uganda’s civil wars, the health care system collapsed and is still
barely functional outside urban areas. Health, nutrition, and child survival indicators have
improved under the government’s promotion of immunizations for measles, polio, and whooping
cough; however many infectious diseases remain endemic. The adult HIV/AIDS prevalence rate
in Uganda is 6.5 percent, ranking 10th in the world. Uganda is listed as “low human
development,” and ranks below the world and regional averages at 161 of 181 comparable
countries on the United Nations Human Development Report.


                 PEACE CORPS PROGRAM BACKGROUND
The Peace Corps began its program in Uganda in 1964. The early years of the country program
focused on education and health, and as the program expanded, Volunteers also worked in



Final Program Evaluation Report: Peace Corps/Uganda                                               1
fisheries, agriculture, computer programming, and surveying. The Peace Corps terminated the
program in Uganda in 1972 due to the civil unrest during Idi Amin’s presidency.

The post reopened in 1991 but the program was suspended again in May 1999 because of
security issues in the capital, Kampala. Volunteers and a full staff returned in 2001 with a single
project in primary teacher training and community school resource teaching. A community well-
being and positive-living project was initiated in May 2002. The community health and
economic development programs were started in 2010.

At the time of the evaluation, 147 two-year Volunteers were serving in three project areas:
education, community health, and economic development. 1 These projects aim to address needs
identified by the government in its efforts to rehabilitate and reform Uganda's educational
system, develop the private sector, effectively manage the country's vast natural resources and
improve the general health status of the Ugandan communities. In addition, one Peace Corps
Response Volunteer (PCRV) was assigned to the education project. 2 There are two trainee inputs
per year; the most recent trainee input was in August 2011 with 46 trainees. Volunteers are
assigned to one of the three project sectors:

    • Education
    This sector has two foci: primary teacher training and community development (ED1), and
    secondary school science and mathematics teaching (ED2). The first aims to improve the
    quality and equity of primary education in Ugandan primary schools through improving
    classroom instruction, increasing the quality of educational leadership and working
    collaboratively with school communities and local organizations to achieve mutually
    identified development goals including efforts to mitigate the impact of HIV/AIDS.
    Volunteers work in primary teacher training colleges and coordinating centers located in
    rural schools. The secondary school science and mathematics teaching project helps
    secondary school students realize their potential by participating in innovative, gender-
    sensitive learning opportunities in science, mathematics, English and information
    communications technology (ICT).

    • Community Health
    The community health project (CH) works with Ugandans living in rural areas to encourage
    them to foster healthy behaviors and improve their health status. The project goals are to
    reduce further transmission of HIV/AIDS and mitigate the impact of the epidemic in the
    general population; to strengthen the capacity of communities and service providers; and
    improve linkages and promote key health and disease prevention behaviors and practices
    affecting maternal and child health, morbidity and mortality. Project partners include the
    Ministry of Health (MoH), which is the host sponsor, as well as local and international non-
    governmental organizations (NGOs), community based organizations and other development


1
  At the onset of evaluation fieldwork, there were 193 Volunteers and trainees in country: 46 trainees, and 147
serving Volunteers, 12 of whom finished their service before fieldwork was completed. Therefore, we selected our
sample from the 135 Volunteers who remained in service for the duration of fieldwork.
2
  Peace Corps Response provides opportunities for Returned Peace Corps Volunteers to undertake short-term
assignments in various program areas around the world.


Final Program Evaluation Report: Peace Corps/Uganda                                                                2
    agencies such as United States Agency for International Development (USAID) funded
    projects.

    • Economic Development/Small Enterprise Development
    The economic development/small enterprise development (SED) project’s main purpose is to
    strengthen the capacities of Ugandan communities in promoting economic development and
    improving livelihoods. The project’s three goals are organizational strengthening, business
    development, and promoting agri-business. Project partners include government, local and
    international NGOs, and community based organizations, sometimes funded by other U.S.
    government agencies such as USAID.

At the time of the evaluation, the post had 44 staff positions. The post also employed 11
temporary training staff to assist with PST. The post’s fiscal year (FY) 2011 appropriated budget
was $2,034,235, which was supplemented by $1,362,400 of President’s Emergency Plan for
AIDS Relief (PEPFAR) FY 2011 funds. 3


                                     EVALUATION RESULTS
M ANAGEMENT C ONTROLS

A key objective of our country program evaluation is to assess the extent to which the post’s
resources and agency support are effectively aligned with the post's mission and agency
priorities. To address these questions, we assess a number of factors, including staffing; staff
development; office work environment; collecting and reporting performance data; and the
post’s strategic planning and budgeting.

In reviewing the post’s relationship with the U.S. Embassy, OIG found no significant areas of
concern that would necessitate action by the post. The post has a collegial and supportive
relationship with members of the U.S. Mission, including the chief of mission, PEPFAR
representatives and USAID staff.

The post has experienced considerable staffing changes since 2009. In addition to the significant
senior leadership turnover, the medical office staffing structure transitioned from an all nurse
post to having two nurse practitioners and one RN at the beginning of 2011. Additionally, a
director of programming and training (DPT) was added to staff in July 2010, and project
specialists were added to each project in summer 2011.

PC/Uganda’s senior leadership turnover negatively impacted programming and Volunteer
safety and security.

The excessive turn-over rate for CDs in Uganda has severely impacted the post’s ability to
develop into a high performing post. At the time of the evaluation, the post was in a state of

3
 This amount does not include the salaries, benefits, and related cost of U.S Direct Hires assigned to post and other
costs the agency has determined should be centrally-budgeted.


Final Program Evaluation Report: Peace Corps/Uganda                                                                 3
transition and had experienced significant senior leadership turnover. Since September 2009, the
post has had three appointed CDs and two acting CDs. The changes in leadership have brought
different visions, different styles and different standards and expectations for the program, the
Volunteers and staff. Over the same period of time, the program has become larger and more
complex to manage. Volunteer numbers have increased and post has expanded into new
geographic areas, including into northern Uganda where Peace Corps has not had a presence
since the 1970s.

MS 125.5.2.1 clearly stipulates that it is the CD’s responsibility to provide leadership to achieve
the program goals at post and manage the day-to-day operations by developing and
implementing overall policy, procedures, goals, and objectives for activities at the post in
accordance with Peace Corps policies and procedures. Additionally, Characteristics and
Strategies of a High Performing Post: Post Management Resource Guide (CSHPP) indicator 1.1
states:

       The country director and staff share a philosophy and vision for the country program and a plan for
       achieving that vision. They articulate these regularly, incorporate them into the management of the program
       and discuss them with other staff members, Volunteers, development partners and counterparts.

The lack of consistent leadership and continuity of vision has negatively impacted the post. As
we discuss in more detail elsewhere in our report, the post’s projects are not solidly developed:
the CH and SED projects do not have project plans; and SED has not identified a national
stakeholder. The education project’s structure, with two sub-components and differing project
activities, impacts the effectiveness of technical training and Volunteer support. None of the
projects have project advisory committees (PACs) and the post does not publish an annual report
for stakeholders.

Though there are basic safety and security systems in place, they have not received sufficient
attention and our evaluation uncovered multiple deficiencies in the post’s emergency
preparedness, including problems with Volunteer consolidation points, site locator forms, the
emergency action plan, and the medical evacuation plan. In addition, we found that Volunteers
are not reporting crimes.

Volunteers reported that the multiple CDs assigned to the post during their service have not
enforced rules consistently. Inconsistency in the enforcement of policies, such as the boda-boda
policy (motorcycle taxi), further discussed elsewhere in our report, has created an environment
where Volunteers inconsistently follow rules. The inconsistency has also left gaps in systems and
processes. The CDs’ differing philosophies on development, such as the use of PEPFAR funding
and whether or not to use grant funding, has impacted PEFPAR funding requests, as well as the
extent to which grant opportunities have been publicized to Volunteers and how resources are
directed to projects.

             We recommend:

               1. That regional managers assess programmatic, Volunteer
                  safety, and administrative gaps created by leadership turnover,
                  identify where the post would benefit from regional or other


Final Program Evaluation Report: Peace Corps/Uganda                                                             4
                   headquarters resources or support, and develop a plan to
                   implement those improvements.

Annual performance appraisals have not been conducted regularly.

Our evaluation found that annual performance appraisals had not been regularly conducted,
which could also be related to CD turnover. Several sections of the Peace Corps Manual
provide guidance for employee performance appraisals:

For foreign service nationals (FSNs), the Peace Corps Manual section (MS) 602.8.1 states:
“Supervisors have a continuous responsibility to evaluate the performance of their employees
and to discuss the evaluation with the employees.... On an annual basis, the supervisor is required
to prepare a written performance evaluation.”

For U.S. direct hires (USDHs), MS 626.6.3 states: “The rating official must complete an
appraisal for each of his or her employees at the conclusion of the appraisal period.”

MS 626.6.2 states that “the rating official must conduct one oral review with each employee
approximately halfway through the appraisal period. At the conclusion of the review, the rating
official and employee must sign the mid-cycle review section of the performance plan.”

For personal services contractors (PSC), MS 743 procedures section 18 states: “It is U.S.
Government policy that a PSC's performance be evaluated during and at the completion of each
contract . . . A copy of the evaluation should be maintained by the Country Director with copies
forwarded . . . as appropriate depending upon the nature of the contracted services.”

In the sample review of 10 employee files, seven performance appraisals for the most recent
cycle had not been completed and a review of personnel files revealed that appraisals had not
been done for most staff on a regular basis. Office management acknowledged that the lack of
performance appraisals has been an issue they are working to improve it.

               We recommend:

                 2. That the post conduct annual and mid-year performance
                    reviews in accordance with Peace Corps policy.

                 3. That the post document and communicate performance
                    issues and development needs to employees.

VOLUNTEER SUPPORT

Our country program evaluation attempts to answer the question, “Has post provided adequate
support and oversight to Volunteers?” To determine this, we assessed numerous factors,
including staff-Volunteer communications; project and status report feedback; medical support;
safety and security support including staff visits to Volunteer work sites, the Emergency Action




Final Program Evaluation Report: Peace Corps/Uganda                                                5
Plan (EAP), and the handling of crime incidents; and the adequacy of the Volunteer living
allowance.

In reviewing the Volunteer Advisory Council (VAC) and overall staff support, OIG found no
significant areas of concern that would necessitate action by the post. Eighty-eight percent of
Volunteers found the VAC to be effective; scores for Volunteer perceptions of staff support are
shown in the table below.

While Volunteers in Uganda generally felt supported by staff, the lowest scores were received in
the area of programmatic support. Five of 23 Volunteers (mostly from the education sector)
interviewed gave below average support scores for their program manager (PM). Volunteers
cited examples of inconsistent communication. Separate concerns were raised about another PM
treating Volunteers inconsistently and playing favorites. However, most Volunteers believed that
the number of site visits they had received from their PMs was adequate and stated that feedback
from PMs on Volunteer Reporting Forms VRFs has improved.

Ten of 23 Volunteers interviewed raised concerns about the adequacy of their living allowance.
During evaluation fieldwork the DMO reported that an increase in the allowance was in process
and at the headquarters staff briefing, the regional chief administrative officer reported that the
increase had taken effect.

The post has an active Volunteer-run sexual harassment and assault committee that focuses on
these issues from a Ugandan context and conducts sensitization trainings for Peace Corps staff.
The deputy chief of mission commended the Peace Corps for leading the way with these efforts.
OIG believes the organization of similar Volunteer-run committees could be an activity that
other posts may find valuable in their own contexts.

                    Table 1. Responses on Perceptions of Volunteer Support
                             Area            Percent of Volunteers   Average
                                              Who Rated Support      Rating
                                                  Favorably
                     Leadership 4                     97%               4.0
                     Programming 5                    85%               3.8
                     Training6                        94%               4.1
                     Safety and Security 7           100%               4.1
                     Medical 8                       100%               4.3
                     Administrative 9                100%               4.4
                Source: OIG Interviews.

Even though Volunteers felt well-supported by staff, and felt confident of the safety and security
coordinator’s (SSC) ability to handle emergencies, the primary concern we identified in our

4
  Leadership was derived by averaging CD and DPT scores
5
  Programming was derived by averaging PM and PS scores
6
  Training was derived from the Training Manager score
7
  Safety and Security was derived from the SSC score
8
  Medical was derived from the collective PCMO score
9
  Administrative was derived from the DMO score


Final Program Evaluation Report: Peace Corps/Uganda                                                   6
review of Volunteer support was the post’s lack of diligence regarding safety and security
processes. This concern was especially troubling given Uganda’s security environment, frequent
political demonstrations, terrorist threats and activity, and public health threats such as ebola and
yellow fever.

Safety and security weaknesses could result in an inadequate response to emergencies.

According to the agency’s primary safety and security policy, MS 270, the agency’s safety and
security program is based on several factors, including “the necessity of having plans in place to
respond promptly and effectively to threats or events.” The evaluation uncovered several
deficiencies in the post’s emergency preparedness, including having systems in place to ensure
Volunteers know their consolidation points; the completeness and accuracy of site locator forms
(SLFs); EAP distribution; and a complete medical evacuation plan.

Consolidation Points
The post had not identified consolidation points for all Volunteers in country. Therefore not all
Volunteers would know where to go in case of an emergency. The list of consolidation points
provided by the post’s SSC only contained information for 113 of 170 Volunteers. Of the 23
Volunteers interviewed, 8 (35 percent) could not correctly identify their consolidation point.

Site Locator Forms
Site locator forms are documents that contain communication and logistical information to help
staff support Volunteers during crises. Medical Technical Guideline (TG) 380, section 5.4
discusses the importance of the Volunteer emergency SLF. Its purpose is to assist staff with
locating a Volunteer in a medical or non-medical emergency.

Sixteen of 23 (70 percent) of the SLFs we reviewed were missing at least one key piece of
information, such as the Volunteer’s phone number, community police contact information,
community medical facility, and adequate maps and directions to the Volunteer’s house. 10
Inaccuracies on the SLFs were not detected by staff because they do not review the forms for
completeness and accuracy after submission.

EAP Distribution
MS 270.8.1 further states that “Each post must develop and maintain a detailed EAP that
addresses the most likely emergency situations that would impact Peace Corps personnel and
operations.”

The post’s EAP addresses the most likely emergency situations that would impact Peace Corps
personnel and operations and includes Volunteer warden information, Volunteer contact
information, and an emergency phone tree. However, six of 17 Volunteers (35 percent) did not
have a copy of their EAP 11.

Medical Evacuation Plan

10
  SLFs were not received for six Volunteers in the OIG sample.
11
  Only Volunteers who were interviewed at their homes were asked to produce the EAP. 17 Volunteers were
interviewed at their homes.


Final Program Evaluation Report: Peace Corps/Uganda                                                       7
MS 264.5 requires that each post prepare a country-specific medical evacuation plan and keep it
current. It is intended to be a comprehensive, country-specific reference guide designed to assist
the post with the safe and efficient medical evacuation of Volunteers, in individual cases and/or
as a group.

Although the post has developed a medical evacuation plan, two of the three PCMOs
interviewed, both of whom had less than one year of tenure at the position, were unaware it
existed which means they would not be able to use it as a resource when needed. Furthermore,
our review of the plan found that it did not include all information required by MS 264.5.1,
including documentation of medical facilities and physicians in neighboring countries that could
be used in an emergency, available transportation systems (including availability, request
procedures and landing field capabilities), current state department regulations concerning
medical evacuations and the current format used by the embassy to request aeromedical
evacuation.

The deficiencies in the post’s emergency preparedness systems raise concerns about staff and
Volunteers’ ability to quickly and effectively respond to an emergency. Given Uganda’s security
situation and potential for incidents this is of particular concern. The evaluation revealed that
important safety and security documents are not consistently reviewed and distributed to people
who may be required to respond to an emergency. Although the regionally-based Peace Corps
safety and security officer has provided guidance to the SSC on the execution of the Peace
Corps’ systems and processes, the post needs continued safety and security oversight and
monitoring to ensure deficiencies are addressed and the post’s safety and security policies and
procedures are appropriate for the environment.

               We recommend:

                 4. That the country director ensure that all Volunteers
                    know the location of their consolidation point.

                 5. That the country director require that the appropriate
                    staff members review the accuracy and completeness of
                    Volunteer site locator forms.

                 6. Peace Corps medical officers update the medical
                    evacuation plan in accordance with Peace Corps Manual
                    section 264.5.1.

                 7. That the country director ensure that all staff members
                    are familiar with the medical evacuation plan in
                    accordance with Peace Corps Manual section 264.5.2

                 8. That the Peace Corps safety and security officer review
                    the post’s safety and security systems and recommend
                    changes to ensure the post is in compliance with relevant
                    agency policies.



Final Program Evaluation Report: Peace Corps/Uganda                                                  8
Volunteers were not reporting crimes.

Twelve of 23 Volunteers interviewed during the evaluation stated that they had been victims of a
crime. However, only four of the 12 Volunteers reported the crime incident to the post. The types
of crime incidents not reported ranged from petty theft, to more serious crimes such as other
sexual assault, burglary, and assault. Volunteers provided the following reasons for not
reporting: they believed the incidents were insignificant or did not impair their safety; too much
time had passed since the incident, or they did not believe Peace Corps could do anything about
the incident.

Further, ten of 23 interviewed Volunteers were unsure whether they would report to the Peace
Corps if they were to become a victim of a crime in the future. Reasons impacting their decision
to report included: the seriousness of the incident, whether the Volunteer was approved to be
travelling where the incident occurred, whether serious medical attention was required, or if
something of significant value was lost.

MS 270.7 requires each post to establish procedures for Volunteer/trainees (V/T) to report
incidents and for how post will receive and respond to incidents. The post must ensure that V/Ts
receive appropriate and timely support in addressing physical, emotional, financial, and legal
needs, and immediate security concerns. The procedures put in place by the post must encourage
V/Ts to report safety and security incidents. Posts are also required to review and analyze
victimization trends and use this information to improve training, better allocate resources and
make other program adjustments.

Of the four Volunteers who reported their crime incident to the Peace Corps, all gave above
average ratings for the Peace Corps’ handling of the situation. However, Volunteers who did not
report raised concerns that they did not have confidence that their issues would be handled
and/or did not have a solid understanding of what help and/or support the Peace Corps could
offer. Many Volunteers stated that the post’s SSC had an overwhelming job, but believed that if
something really serious were to happen, he would be there to support them. According to the
PCSSO the SSC intends to conduct a session at the Volunteer close of service (COS) conference
to explore why Volunteers are not reporting crimes.

Without a full picture of crimes against Volunteers, Volunteers cannot receive appropriate and
timely support to assist in addressing physical, emotional, financial and legal needs, in addition
to immediate security concerns. Additionally, the post is unable to use a full set of data to
identify trends and improve training, better allocate resources, and make other program
adjustments.




Final Program Evaluation Report: Peace Corps/Uganda                                                  9
              We recommend:

                9. That the country director and safety and security
                   coordinator inform trainees and Volunteers of the
                   importance of reporting crime incidents and of post and
                   agency support available to victims of crime, including
                   the services of the agency’s Victim’s Advocate.

                10. That the post, with the support of the Peace Corps safety
                    and security officer assess reasons crime incidents are not
                    reported, and take steps to increase Volunteer crime
                    incident reporting.

The RSO was not receiving crime incident reports through Peace Corps’ reporting system.

The RSO was not receiving Consolidated Incident Reporting System (CIRS) reports from the
post, which is used by post staff to report all crime and security-related incidents against
Volunteers, staff, and Peace Corps property. The RSO did not have an active login to the
agency’s CIRS system, and with the implementation of CIRS 3.0, the system could no longer
accommodate individual email addresses and instead required one alias email account to receive
reports. In follow-up discussions, we determined that the assistant RSO, who is responsible for
day-to-day liaison with the Peace Corps, was not receiving CIRS reports. Following the exit
briefing at post, the post was actively in the process of following up with the embassy and with
Peace Corps headquarters to remedy the situation.

              We recommend:

                11. That the country director confirm that the regional
                    security officer has access to the consolidated incident
                    reporting system and is receiving notifications as
                    appropriate.

P ROGRAMMING

The evaluation assessed to what extent the post has developed and implemented programs
intended to increase the capacity of host country communities to meet their own technical needs.
To determine this, we analyzed the following:

   •   the coordination between the Peace Corps and the host country in determining
       development priorities and Peace Corps program areas;
   •   whether post is meeting its project objectives;
   •   counterpart selection and quality of counterpart relationships with Volunteers;
   •   site development policies and practices.

In reviewing the country agreement, memoranda of understanding (MOUs), and grants OIG
found no significant areas of concern that would necessitate action by the post. The post’s


Final Program Evaluation Report: Peace Corps/Uganda                                           10
country agreement was renewed in December 2007, superseding the original agreement
established in 1964. The post has MOUs with the Ministry of Education and Sport and the
Ministry of Health. There are currently no national level government partners for the SED
project, although the post is looking to identify and define strategic partnerships.

The post’s Volunteer grants are managed by two different staff members, one of whom manages
Small Project Assistance (SPA) and Peace Corps Partnership (PCPP) grants and the other who
manages Volunteer Activities Support and Training (VAST) grants, and the review committee is
composed of staff. At the time of evaluation fieldwork, the post was attempting to streamline the
grant process by developing one template for all three funding types. Volunteers who were
involved in grants were satisfied with the way they were operating.

The post is developing the building blocks for a solid and strategic programming effort. The
programming and training team’s staffing structure has evolved over the past two years. The
DPT position was added to post in July 2010, as the region’s staffing strategy for post
programming and training leadership has evolved. In the summer of 2011, technical Project
Specialist (PS) positions were added to each project. The PS for the SED project also coordinates
SPA and PCPP grants. She estimated that she spent 55 percent of her time on project duties and
45 percent of her time on grants activities.

While there is room for programmatic improvement, all Volunteers interviewed believed there
was enough work to do, and 95 percent rated their satisfaction with their site as adequate or
better.

Some Volunteer sites did not have reliable access to Peace Corps approved transportation and
were instead using motorcycle taxis.

Volunteers in Uganda are typically placed in rural areas and use public transportation to get
around the country – whether to and from their sites to market towns, to visit other Volunteers,
or to Peace Corps sponsored events. Traveling as a passenger on a boda-boda or commercial
motorcycle taxi is a popular yet risky form of public transportation throughout Uganda, and in
some more rural areas it is the predominant method. Per the post’s Volunteer Handbook:

       Volunteers/Trainees are expressly prohibited from using the following forms of transportation in
       Uganda:

           •   Motorcycles or motor scooters (including boda-bodas);
           •   Any form of motorized vehicle driven by a PCV;
           •   Riding in the back of pickup trucks or lorries or any commercial vehicle not registered as
               a “PSV” (Passenger Service Vehicle)

       …The ONLY exception to this rule is in an emergency situation in which the safety and security
       of the Volunteer would be jeopardized by following this policy. Volunteers who do not adhere to
       these restrictions are subject to immediate Administrative Separation.

Volunteers were not following the post’s transportation policy. During interviews, all Volunteers
stated that motorcycle taxi use by Volunteers is common and that most had ridden as a passenger



Final Program Evaluation Report: Peace Corps/Uganda                                                         11
on a boda-boda at least once during their service. Comments from Volunteers reflect the
challenges they face in complying with the post’s transportation policy.

       “For my site - you aren't required to ride a boda. But, there are some people you go and visit and it’s the
       only way. It really frustrates people when you have to lie - but they put you in a situation where you have to
       lie because there is no transportation”

       “I think PC/Uganda needs to work on site development. Transportation wise - if you are going to have
       rules, you need to make sure that the Volunteer can follow those rules at the site you are placing them at.”

       “I fully understand and see why the Peace Corps has that policy. It’s tough to put into practice for almost
       all volunteers. 99 percent ride bodas. We have been suggesting for some time that if the Peace Corps wants
       to stick to no bodas, they need to have Peace Corps volunteer leaders take public [transportation] all the
       way out to that site.”

       “To effectively do my work, I need to be able to ride a motorcycle. I would guarantee it would never be on
       a paved road. There are some of us out here who have no other options… I walk 10-20 kilometers to get to
       meetings sometimes.”

Post staff are not adequately considering transportation options available to Volunteers when
they develop sites. Some staff acknowledged that some Volunteers are placed in situations where
it would be very difficult for Volunteers to do their jobs without using boda-bodas. Other staff
believed that Volunteers were using boda-bodas because it was more convenient than riding
bicycles, or waiting for other public transportation options.

While efforts to monitor and enforce this policy have been made in the past, there is a lack of
consistency in this regard. The SSC reported that during his tenure two Volunteers were
administratively separated for using boda transportation. Staff reported that during the most
recent Volunteer-Counterpart conference, a Volunteer who was finishing service reported to
everyone that he could not have done his job without using a boda-boda. One Volunteer reported
that the sentiment from staff regarding boda-boda use is “what mama don’t know, don’t hurt.”

Volunteers, especially those in more isolated areas and those who have to move around their
communities to do their jobs, stated that they did not have other viable options for transportation.
Volunteers reported that special hire taxis were too expensive to hire on a regular basis, or that
transportation options that were reported to Peace Corps staff during site development might not
exist by the time a Volunteer is placed in his or her community.

                We recommend:

                  12. That the post review its Volunteer transportation policy
                      and make adjustments if necessary.

                  13. That the country director confirm that currently serving
                      Volunteer sites have post-approved transportation
                      options for work-related or other necessary travel.

                  14. That the country director ensure that Volunteer
                      transportation options are assessed during site


Final Program Evaluation Report: Peace Corps/Uganda                                                               12
                    development and that Volunteers have post-approved
                    transportation options for work-related or other
                    necessary travel.

Medical and health factors were not sufficiently considered when developing Volunteer sites.

While there is considerable variation in what each Peace Corps country can offer from a health
resources standpoint, Peace Corps medical officers (PCMO) rely on three primary components to
assess the availability of health resources for Volunteers where they live and work: the site
development process, medical staff’s awareness of local medical resources, and medical site
visits. Even though Volunteers’ support scores for PCMOs were high and Volunteers were
satisfied with the health care they received, we found some deficiencies with the systems
intended to ensure that medical and health factors are adequately considered when developing
Volunteer sites.

The general quality of health services in the locations where Volunteers live and work in Uganda
is rudimentary, if services exist at all. The PCMOs permit some local clinics to diagnose
conditions such as malaria and giardia, but PCMOs typically bring Volunteers to the Peace
Corps Medical Office in Kampala for treatment.

Site Development and Assignment
The post’s health unit staffing has changed significantly since December 2010. Prior to that date,
it was staffed with four registered nurses who had long practiced in Uganda. At the time of
evaluation fieldwork, two new mid-level nurse practitioners joined one of the previous nurse
PCMOs.

The two newly-hired nurse practitioner PCMOs stated that they had not been involved in the site
development process and did not have input into site assignment before a Volunteer was placed.
Neither of them was familiar with the criteria for site development. The longest tenured nurse
PCMO, who has worked at the post for approximately 20 years, stated that in the past the
medical unit would only take part in site development if programming staff raised concerns.

The PCMOs stated that they did not have sufficient staff resources to increase their involvement
in site development and that in the past they had not been more involved in site development,
assignments, or visits because of a lack of time. Without being more involved in the process, it
would be difficult for the medical unit staff to confirm that Volunteers had access to essential
health care and other support services.

A primary component of successful Peace Corps programs is a thorough and collaborative site
development process. Sites must not only be programmatically viable, but sufficiently safe with
access to necessary support services like communication, transportation, and essential health
care.




Final Program Evaluation Report: Peace Corps/Uganda                                             13
MS 270.6 requires that:

        Each post must develop and apply criteria for the selection and approval of sites. Criteria
        should address work role, potential for integration, living arrangements, vulnerability to
        natural disasters, communication, transportation, access to essential health care and other
        support services, security climate, and consent of host authorities… Evaluation of the
        site and satisfaction of site selection criteria must be documented by the post.

CSHPP Indicator 11.5 for “Selecting and Monitoring Trainee and Volunteer sites” also states,
“Site identification must be a collaborative effort, including programming, administrative, health,
and safety factors and participation, and it is the country director’s duty to lead in and ensure this
collaboration.”

CSHPP Indicator 10 for “Health and Health Related Emergencies” discusses that:

        The CD, AO, and PCMO must all have a full understanding of the strategies and
        effectiveness of health support coverage throughout the areas in which
        Volunteers serve, i.e., the means of communication, local facility and treatment
        options, means of supply and medication delivery, means of updating
        prophylactic injections, and local medical treatment and support options for
        Volunteers in any given part of the country…. CDs should discuss and
        understand these arrangements fully with the PCMO and AO and ensure that
        Volunteers’ needs are being met in the most advantageous and cost-effective
        manner to Peace Corps…. Health support and medical costs are complicated,
        expensive matters and neither can be compromised

Medical Site Visits
In discussions with OIG the three PCMOs acknowledged that regular medical site visits to
Volunteers had not occurred on a consistent basis until January 2011 and had not been conducted
for the past three years. A March 27 - April 2, 2011 OMS Health Unit Assessment reflected that
only 15 percent of Volunteers were visited at least once by a medical staff member in the prior
year. The post’s FY 2011 Administrative Management Control Survey (AMCS) also highlighted
deficiencies in PCMO survey and documentation of environmental and health conditions for new
sites (MS 262.34), placing regular PCMO site visits to Volunteers as “high risk” in the “Health
and Safety” section. 12 OIG commends the post for identifying this weakness in its self-
assessment of post management and looks forward to its corrective action plan as part of the
agency’s response to the evaluation.

CSHPP Section 10 discusses the importance of PCMO site visits to Volunteers:

        PCMOs should be conducting site visits. If they do not, their own knowledge of the
        Volunteers’ situations is incomplete, and they may not be reaching certain Volunteers
        who do not come in. In addition, they have an important role to play in site selection and
        development and in knowing and evaluating local health conditions and local and

12
  The AMCS is a tool for overseas posts intended for self assessment of post management. Completed at the
discretion of the Country Director and under the guidance of the respective Regional Director, posts may complete
the survey annually (at a minimum) or quarterly (at a maximum). The AMCS calculates risk for each question,
category and post overall.



Final Program Evaluation Report: Peace Corps/Uganda                                                             14
       regional medical resources. These are important functions to carry out; yet some PCMOs
       hesitate to leave the office for fear that emergencies will arise while they are gone. This is
       all the more reason for having a smoothly functioning backup system. PCMOs need to
       get into the field, Volunteers need to see them in the field, and CDs need to help make
       this happen.

MS 261.3.5 discusses the responsibility of PCMOs to visit Volunteers at their sites. While the
number or frequency of site visits is not specified, according to OMS Quality Assurance, the
expectation is that Volunteers will be visited by a medical staff member annually. However,
OMS recognizes that this is a budget driven activity. The post’s site visit policy states that every
Volunteer should be visited by a PCMO at least once during their service. The current practice,
instituted in January 2011, is that every quarter, one PCMO will visit multiple Volunteer sites in
one region to review the Volunteer’s house, latrine, water source and the availability of basic
health care.

The longest tenured PCMO at the post stated that site visits were completely stopped for a few
years because of a lack of time.

       When there was only one intake [per year] of Volunteers, we got the gold star for doing
       site visits. It changed when we went from one intake a year to two. Our numbers
       increased very rapidly with no additional staff and no additional space. There was a lot of
       additional stress all around….

The potential negative effect of infrequently visited Volunteers is that PCMOs do not have a
comprehensive understanding of Volunteer site conditions, public health issues specific to that
locale, or the quality of and access to medical facilities in the area.

Awareness of Local Medical Resources
The post managers are expected to be sufficiently informed regarding the available health
support services in the areas where Volunteers serve and ensure that Volunteers’ needs are being
met in the most advantageous manner – to both Volunteers and Peace Corps. CSHPP Indicator
10 for “Health and Health Related Emergencies” discusses the need for this information,
particularly “local facility and treatment options, means of supply and medication delivery,
means of updating prophylactic injections, and local medical treatment and support options for
Volunteers in any given part of the country… CDs should discuss and understand these
arrangements fully with the PCMO and AO [DMO] and ensure that Volunteers’ needs are being
met in the most advantageous and cost-effective manner to Peace Corps.”

One way this is done is to develop a network of referrals to support and supplement the Peace
Corps health program for Volunteers. CSHPP Indicator 10 discusses the importance of this and
underscores that:

       The PCMO must research, cultivate, and maintain an up-to-date network of necessary
       and qualified referrals to support and supplement the health care program for Volunteers.
       This network must be recorded, so staff and backup health personnel know what the
       resources are, and it should be reviewed regularly. Indeed, per OMS, this information
       must be documented in the Country Health Resource Survey (CHRS) and updated, at
       least annually, by the PCMO. The CHRS is accessible via the Intranet. Also, CDs should




Final Program Evaluation Report: Peace Corps/Uganda                                                     15
       be willing to assist the PCMO in establishing this network by playing a representational
       role in the process, as needed, and should let PCMOs know of their willingness to do so.

In the March 27 - April 2, 2011 OMS Health Unit Assessment, the reviewer noted that “PCMOs
are not using standard forms provided by OMS for assessing quality and recording information
about consultants and facilities. [One former PCMO] and [one current PCMO] know the
healthcare facilities well but there is only some documentation of this.” Post medical staff said
that local provider and resource assessment outside of the capital is done as part of the medical
site visit process. One PCMO stated that they do not have the time or resources to do an
exhaustive survey of resources in outlying areas. “It’s a dynamic and dismal situation. To a
certain extent…when we go upcountry we try to identify resources, but we could spend a lot
more time doing it.”

Most of the local medical consultants and facilities used by the post are in Kampala. The CD
acknowledged that due to a lack of infrastructure, the post typically medically evacuates
Volunteers to Kenya or South Africa.

Even though the previous post medical team knew the country well and had been at the post a
long time, situations change and understanding the resources available is necessary. Uneven
documentation of local medical resources does not allow new staff and backup health personnel
to be sufficiently prepared.

               We recommend:

                  15. That the country director ensure that the site
                      development process is collaborative and includes Peace
                      Corps medical officer input into site identification criteria
                      and approval of final Volunteer site assignments.

                  16. That the country director prioritize Peace Corps medical
                      officer site visits to meet its policy that each Volunteer
                      receives at least one medical site visit during service.

                  17. That the Peace Corps medical officers document and
                      maintain a record of local resources available to support
                      and supplement the health care program for all
                      Volunteers, including those located upcountry.

Poor structuring of the education project negatively impacted the quality of technical training
and programming support.

The post’s education project includes a primary education component and secondary education
component. For the one project there are two different ministry partners, two different
beneficiary groups, and a different set of goals and objectives for each component; and, the post
submits a project status review for each component. The number of Volunteers assigned to this
project was considerably higher than the other two projects: during our evaluation there were 68
education Volunteers, 37 economic development Volunteers, and 43 community health


Final Program Evaluation Report: Peace Corps/Uganda                                               16
Volunteers. 13 All three projects had the same staffing structure of one project manager (PM) and
one project specialist (PS).

                              Table 2. Volunteer to Project Staff Ratios
                Project                 # of Volunteers           # of Project Staff         V:S Ratio
        Education                             68                          2                    34:1
        Community Health                      43                          2                    22:1
        Economic Development                  37                          2                    19:1
        Source: OIG interviews 2011

Of the Volunteers in our sample, primary education Volunteers felt less prepared to do their jobs.
Eighty-three percent (5 of 6) of interviewed Volunteers in the primary education project rated
technical training below average and stated that the training was not relevant to their experience
in the field. Primary education Volunteers also wanted clarification on job descriptions. There
were no significant differences in the ways that secondary education, community health and
economic development Volunteers rated technical training.

Staff acknowledged the need to review and refocus the education project plan. The Peace Corps
Programming and Training Guidance: Project Design and Evaluation explains the Peace Corps’
system of project reviews as a participatory process to identify project strengths, weaknesses,
and opportunities to create a stronger project design, beginning with a strong project
framework. The DPT reported that the project plan was formulated with goals and objectives for
both education and community development and that it needs to be revisited and refocused.
While the Office of Overseas Programming and Training Support (OPATS) was scheduled to
review the education project in 2010, the visit was cancelled and has not been rescheduled.

With regards to support, four Volunteers, two from each of the education components, gave
below average support scores for their PM. Volunteers cited examples of inconsistent
communication or a complete lack of response. However, Volunteers also expressed that the
education PM is dedicated, well respected among stakeholders and knows her job well but they
do not believe that one person can manage the project:

        “I think they need to lighten her work load… She’s good at what she does but if she can't manage all the
        Volunteers - she needs to be given help.”

        “She's been very supportive and is a wealth of knowledge and experience. In the brief
        time she was here she made an organizational change. We were talking about caning with
        the headmaster and she said ‘why don't you have [the students] write?’ She said, ‘what
        are they learning when you beat them? They and you may learn when they write.’ The
        next day - he implemented it.”

        “Support oscillates. Communication is her biggest challenge. It’s not just timely
        communication - it's absence of communication… You have to do repeated calls or texts
        to get her attention. Part of it might be because she has so many Volunteers under her…”


13
  There was a training group of 21 community health and 25 economic development trainees in Uganda during the
evaluation fieldwork. There are two inputs per year; one input includes both community health and economic
development trainees and the other contains education trainees.


Final Program Evaluation Report: Peace Corps/Uganda                                                                17
Appropriate distribution of duties for programming staff is addressed by CSHPP indicator 6.8
that states, “There is an appropriate distribution of duties among APCD/PMs, and strategies are
being used to support APCD/PMs in their program responsibilities....” It also says that “one of
the country director’s and [DPT’s] major responsibilities is to watch what and how APCD/PMs
are doing and work with them to make sure that: their jobs are balanced; task distribution is
realistic, practical, fair, and effective; they have the resources, support, and assistance necessary
to accomplish what they need to do; and they are able to carry out their duties without spending
endless evenings and weekends working.”

                We recommend:

                  18. That the director of programming and training conduct a
                      project review of the education project with support from
                      the region and the Office of Overseas Programming and
                      Training Support and, if necessary, adjust the project
                      plan and other project documents.

                  19. That the country director and the director of
                      programming and training review and adjust as
                      necessary programming staff’s job loads to ensure they
                      are realistically distributed and effective.

The post has identified some challenges to “Focus In and Train Up” while concurrently
undertaking new strategic partnerships and initiatives.

FITU is an important strategy articulated in the agency’s comprehensive agency assessment. It
calls upon the Peace Corps to focus on key project sectors by scaling up a limited number of
highly effective projects, providing world-class training and comprehensive support to prepare
Volunteers for success, and measuring and evaluating impact to improve performance and better
serve communities. The comprehensive agency assessment also calls for the Peace Corps to
explore partnerships:
       A more focused strategic lens will allow the Peace Corps to create partnerships with
       recognized technical experts from academia, civil society, government and the donor
       community in each priority sector to better inform Volunteer training, technical support,
       monitoring and evaluation.

It also reasons that by partnering, Volunteers serving with a more focused agency could
contribute meaningful work in their communities much earlier in service, therefore increasing
the Peace Corps’ effectiveness and impact.

The assessment recommended moving forward with both of these initiatives immediately, and
the post is trying to do so. Staff expressed concerns about the tension between sharpening the
focus of the current projects with FITU while at the same time expanding strategic partnerships
and participating in other U.S. government initiatives such as the Global Health Initiative, Feed
the Future, and the President’s Malaria Initiative, all of which are being advanced under current




Final Program Evaluation Report: Peace Corps/Uganda                                                18
post programs. Staff expressed concerns about being pulled in many directions with limited
resources and that Volunteers were asked to do too many things outside their area of expertise.

Throughout its history, the Peace Corps has employed partnerships that have been very
successful in some areas, but in others has led to “one-off" projects based on the needs of
partners and matching Volunteer skill sets, where an overarching strategy was missing or the
overall development impact could not easily be assessed. The FITU strategy seeks to solve this
challenge and level receiving organizations’ expectations by embracing generalist Volunteers
and training them sufficiently to be successful in a limited number of technical interventions. 14
While there may be some real long term benefits to both strategies, strategic partnerships must
complement FITU to be successful. As the post’s projects are “focusing-in,” it will be important
to understand the options for partnerships in the longer term, and to make sure that the program
is sufficiently established before partnerships are committed to. Success will require strong
leadership and additional effort from programming and training staff. We found that the CD and
staff are attentive to these issues, but we believe they will require close coordination with
potential partners to ensure the partnerships complement the post’s focused projects and that
expectations for all parties are explicit.

The new standalone community health and economic development projects did not have
project plans.

The Peace Corps’s CSHPP emphasizes the importance of a project plan because of the benefits
gained from systematically developing the project and summarizing what will be carried out in
the field. Agency guidance recommends that posts involve counterparts, Volunteers, and project
partners in project plan development.

The Peace Corps Programming and Training Guidance: Project Design and Evaluation states
that “Strong documentation of your project plan helps to build an understanding on the part of host
agencies, staff, and Volunteers on the project goals and objectives and the strategies for achieving
those goals and objectives.” It also says that the plan should be kept up-to-date and used regularly.

The community health and economic development project split from one project to two
standalone projects, CH and SED, in 2011. Neither project has its own project plan, but each
works under the project framework that was included in the combined CHED project plan.
Programming staff reported that they are working towards developing individual project plans as
they undergo the process of “focusing in,” or selecting focus areas for their projects. Seventeen
of 23 (73 percent) of Volunteers we interviewed were adequately or more familiar with their
project’s goals and objectives, though most described them very broadly.

                 We recommend:

                   20. That the post develop individual project plans for the
                       community health and economic development projects.


14
  The FITU strategy is designed to maximize the skills of Volunteers with limited expertise and/or work
experience.


Final Program Evaluation Report: Peace Corps/Uganda                                                       19
The post had not identified a national level stakeholder partner for the SED project.

The post is currently attempting to identify and define strategic partnerships. The Peace Corps
Programming and Training Guidance: Project Design and Evaluation section B.3.2 highly
recommends that every project have a current national/ministry level memoranda of
understanding:
       Each Peace Corps project should ideally operate under an agreement signed at the national level with the
       host country government.... Memoranda of Understanding that establish a clear understanding of the goals,
       objectives, and working relationship between the Peace Corps and host ministries help to manage
       expectations and add credibility to the Peace Corps’ work in the country….

An MOU could establish a clear understanding of the goals, objectives and working relationships
among the Peace Corps and the host ministries. These tools could help ensure that all
stakeholders have appropriate expectations for Peace Corps’ projects, and that project efforts are
focused.

                We recommend:

                  21. That the post identify a national partner for the economic
                      development project and develop memoranda of
                      understanding to guide their relationship.

The post’s projects did not have Project Advisory Committees.

The post did not have project advisory committees (PAC) for any of their projects. The Peace
Corps Programming and Training Guidance: Project Design and Evaluation, states that “PAC is
the 'voice of key project stakeholders' that helps the Peace Corps ensure that it develops credible,
realistic and responsive project plans and training programs.” The guidance states that PACs
should be established for each new project and should remain active throughout the life of a
project.

       This committee shares responsibility for the design, evaluation, and revision of the project. The
       input of PACs is critical to maximize the sustainability of Volunteer work, to confirm project
       support from the government, and to define and communicate an optimum role for Volunteers in
       collaboration with other organizations addressing the issue.

The DPT was supportive of PACs and has introduced the concept to the programming team. All
PMs welcomed the idea of developing PACs for each of their projects. A PAC could be a forum
to provide strategic direction for the project and could help ensure that all stakeholders are in
sync with the expectations for Peace Corps’ projects, as they focus project efforts and build
strategic partnerships.

                We recommend:

                  22. That the post develop project advisory committees for
                      each of its projects.



Final Program Evaluation Report: Peace Corps/Uganda                                                           20
The post has not produced a comprehensive annual report for stakeholders.

The agency’s FY 2011 Performance and Accountability Report (PAR) sets forth annual
performance results against the agency’s performance indicators. The post has not produced an
annual report with information on each project for stakeholders as required by performance
indicator 1.1.1b which is defined below:

         An annual progress report is a program update describing the achievements of all Peace Corps projects at a
         Post. The annual report must address all projects at Post with a recommended minimum on one page per
         project. The progress report may take the form of an annual printed report which is sent to host country
         sponsoring agencies or a document to accompany an oral presentation.

The indicator has a target for 85 percent of posts to “provide annual progress reports to their host
country agency sponsors and partners.” 15 This indicator contributes to Performance Goal 1.1.1
which is to “ensure the effectiveness of in-country programs.”

The post had not produced a comprehensive annual report for all stakeholders. The education
project had produced a report, but no annual reports were produced for the CH and SED projects.
Although post’s report only covers one of its projects, we note that this report has been used to
satisfy indicator 1.1.1b.

The rationale for indicator 1.1.1b listed in the PAR states, “the agency collaborates with partners
and increases the agency’s accountability to the host country by reporting progress annually to
host country partners.” In the discussion of the result for indicator 1.1.1b in the FY 2011 PAR,
the agency reported that this indicator received particular attention at each strategic plan
quarterly performance review. The annual reports, completed in the host country language and in
English, summarized the results of the program, using information from Volunteers’ quarterly
reports, site visits by PMs, and program evaluations. Several posts cited the benefit of meeting
with partners to present their report. Posts that have been preparing reports for several years
noted the best use of the report is to view it as a process of dialogue with partners throughout the
year, culminating in a final report.

                  We recommend:

                    23. That the post develop a comprehensive annual report for
                        stakeholders that addresses all projects at post per the
                        indicator 1.1.1b definition.




15
  For FY 2011, the agency reported that it met its overall target for Indicator 1.1.1b with 87 percent of posts
providing the annual report to stakeholders.


Final Program Evaluation Report: Peace Corps/Uganda                                                               21
T RAINING

Another objective of the post evaluation is to answer the question, “Does training prepare
Volunteers for Peace Corps service?” To answer this question we considered such factors as:

   •   training adequacy;
   •   planning and development of the training life cycle;
   •   staffing and related budget.

In reviewing the post’s process for planning and developing training, OIG found no significant
areas of concern that would necessitate action by the post. The post had developed a set of core
competencies for all Volunteers as well as sector competencies and learning objectives for each
project. The post actively uses the training, design, and evaluation (TDE) process and all units
participate. Reviews to assess PST are held midway through and at the end.

There have been communication challenges between the post’s training team and administrative
team related to the timing of the TDE process and the timing of budget development. All training
activities had not been identified by the time the budget was developed. However, planned
training changes were not communicated to the administrative team, which caused last minute
turmoil. Both groups recognized the issue and were working to improve communication.

Volunteers participate in several training events throughout their service, including PST, an in-
service training (IST) held three months after swearing-in, and a mid-service training (MST),
held after Volunteers have been serving for one year. We asked Volunteers to rate the
effectiveness of these trainings and found that training is generally effective, although
improvements need to be made to PST technical training. This is consistent with the 2011 All
Volunteer Survey (AVS) data where the post’s education Volunteers rated technical training
somewhat lower than global averages (30 percent inadequate compared to 25 percent inadequate
globally), as did SED Volunteers (34 percent inadequate compared to 25 percent globally).

Some Volunteers also raised concerns that IST was too much of a repetition of PST and the
language component was unstructured and not useful. However, Volunteers praised the time
spent on working with counterparts and secondary projects.

                       Table 3. Volunteer Perceptions of Training Effectiveness
                         PST Topic            Percent of Volunteers   Average
                                              Who Rated Training      Rating
                                                   Favorably
                    PST
                      Language                        91%               4.2
                      Cross Culture                  100%               3.8
                      Safety & Security               96%               3.7
                      Health                         100%               4.2
                      Technical                       55%               3.0
                    IST                               75%               2.9
                    MST                              100%               4.0
               Source: OIG interviews 2011.


Final Program Evaluation Report: Peace Corps/Uganda                                            22
Volunteers, especially those in the education project, reported that technical training was not
practical.

MS 201 “Eligibility and Standards for Peace Corps Volunteer Service” states that a trainee must
demonstrate technical competence, which is defined as “proficiency in the technical skills
needed to carry out the assignment” by the end of training.

Ten of 22 interviewed Volunteers (45 percent) rated technical training below average. While
each project was represented in this number, five of these served in the primary education
project. Volunteers in the primary education project, both in primary teachers colleges and
coordinating center tutors, expressed the concern that training was not relevant to their
experience in the field, and they also wanted clarification on job descriptions. A recurring issue
of concern that permeated across all sectors was that technical training was not practical enough
and was too superficial. As mentioned in the previous section on programming, improvements to
the project plan and site development could help focus technical training.

OIG has found that delivering effective technical training is consistently a challenge
for Peace Corps posts worldwide. The Training Design and Evaluation (TDE) process developed
by OPATS is intended to provide a structured methodology to ensure that programming and
training is aligned, and that Volunteers are working towards competencies needed for successful
service. It is intended to provide a mechanism to assess and monitor trainees’ progress against
relevant targets.

The post did not have any permanent technical training staff and expressed difficulty in
recruiting for them. The DPT explained that the Peace Corps’ training methodology is
experiential and that that is a developed skill. It requires significant oversight by the
programming staff and DPT, but the programming staff are already stretched thin.

               We recommend:

                 24. That the country director and programming and training
                     staff develop and implement a plan for technical training
                     that is more practical and relevant to Volunteer
                     assignments.

Volunteers did not receive sufficient training and information to complete the Volunteer
Reporting Forms.

The Peace Corps’ Programming and Training Guidance: Project Design and Evaluation
describes the recommended process for developing Peace Corps projects. Posts are expected to
develop a monitoring and evaluation plan to measure project implementation and evaluate how
well the project is working. Volunteers play a role in the agency’s monitoring and evaluation
activities by collecting baseline data, observing and documenting behavior changes of targeted
populations, and reporting information to their APCD/PM in the Volunteer Reporting Form
(VRF). Volunteers’ performance data is reported to headquarters through the project status report




Final Program Evaluation Report: Peace Corps/Uganda                                            23
process and used in the agency-wide aggregation included in the agency’s PAR. 16 Programming
and training staff is expected to develop the initial monitoring and evaluation plan and train
Volunteers. The guidance states, “It is important that Volunteers be properly trained in how to
fulfill their monitoring and evaluation roles, and that they understand how the information they
provide will be used.”

Thirteen of 21 Volunteers interviewed said that they did not receive any training on gathering
and submitting performance information through the VRF. Of the eight Volunteers who said that
they received some guidance, many did not have a clear understanding of what was expected of
them, how they needed to report performance data, or why it was important. A few Volunteers
reported that they were told to keep a journal of what they were doing, but had no idea how the
data would be reported or aggregated.

The reliability of the post’s performance data, its usefulness in project monitoring and Volunteer
support, and its value to the agency for evaluation and reporting purposes is dependent on the
VRF training and guidance Volunteers receive. Given the significance of the PAR data to the
agency, it is important for all Volunteers to submit accurate, timely performance reports.
Volunteers need to clearly understand what kind of information to collect and how and when
they need to report the data.

        We recommend:

                   25. That the training manager improve performance
                       reporting training for Volunteers.

Orientation for new Peace Corps trainers has been ineffective.

Some staff reported that recruiting and retaining Language and Cultural Facilitators (LCFs) and
technical trainers has been challenging for the post. Staff stated that the two-week Training of
Trainers (ToT) orientation is not sufficient for staff who are completely new to the Peace Corps
and its teaching methodology. This sentiment was also reflected as a challenge in the End of
Training report.

Programming and Training Guidance on Management and Implementation states:

        Because pre-service training staff are often hired for only part of the year, and often some are new
        to the Peace Corps, many posts conduct training of trainers workshops or have some other
        method to ensure that trainers accomplish a set of learning objectives prior to the start of PST….
        The length and structure of training of trainers workshops vary from post to post… If feasible, a
        longer TOT of a minimum of two weeks will provide more valuable knowledge and skill-building
        for temporary PST staff (Book 4, section G).




16
  As required by the Government Performance and Results Act and related Office of Management and Budget
guidance, the Peace Corps prepares strategic and annual performance plans and reports results annually in its
Performance and Accountability Report.


Final Program Evaluation Report: Peace Corps/Uganda                                                             24
       We recommend:

                 26. That the post review the training of trainers and
                     determine if it is a sufficient orientation for trainers who
                     are new to the Peace Corps.

P RESIDENT ’S E MERGENCY P LAN FOR AIDS R ELIEF (PEPFAR)

Another objective of this post evaluation is to answer the question “is the post able to adequately
administer the President’s Emergency Plan for AIDS Relief (PEPFAR) program, support
Volunteers, and meet its PEPFAR objectives?” To answer this question, we evaluate:

   •   Whether the post is implementing its PEPFAR objectives as laid out in the annual
       implementation plan
   •   Relationships between the post and coordinating partners
   •   Whether Volunteers are fulfilling HIV/AIDS-related assignments and handling related
       challenges

PEPFAR provides funding to Peace Corps posts to help expand and enhance their response to the
HIV/AIDS epidemic. The Peace Corps’ Office of Global Health and HIV (OGHH) has the
responsibility for agency-level policy guidance, overall leadership, and general supervision,
direction, and coordination of Peace Corps’ domestic and foreign HIV/AIDS activities. To
obtain PEPFAR funding, OGHH requires posts to submit an implementation plan that details the
proposed activities that posts will implement with PEPFAR funds. This funding is provided in
addition to post’s appropriated funds.

The post has received PEPFAR funding since FY 2004. PEPFAR supports a large percentage of
post’s activities and operations. The DMO reported that the post is cautious to not become overly
dependent on PEPFAR funding for the post’s on-going operational needs.

                    Table. 4 The Post’s PEPFAR Funding FYs 2007-2011
                   Fiscal Year         PEPFAR Funding          Percentage increase
                                           amount                over prior year
               FY 2011                     1,343,400                  291%
               FY 2010                      343,700                   -88%
               FY 2009                     2,985,220                   42%
               FY 2008                     2,096,020                   44%
               FY 2007                     1,457,000                  100%

In reviewing Volunteer assignments, training, and coordination with other U.S. government
entities, OIG found no significant areas of concern that would necessitate action by the post.
PEPFAR is well-integrated into programming and Volunteer activities. Twenty one of the 23
Volunteers interviewed have been involved in HIV/AIDS related activities. The Volunteers’
HIV/AIDS-related activities run the gamut of PEPFAR focus areas, although work promoting
“Condoms and Other Prevention” was the most prevalent. The post has a good relationship with
the U.S. Mission PEPFAR coordinator, who reported that in the last three years he has worked


Final Program Evaluation Report: Peace Corps/Uganda                                              25
well with all of the post’s CDs, who have all been committed to broad programs in HIV/AIDS
even though they have had differing visions. The PEPFAR communications officer, had
previously experienced some challenges publicizing Volunteers’ PEPFAR success stories and
activities because of difficulty accessing Volunteers to learn about their work and
accomplishments.

Staff with more Peace Corps tenure reported that the PEPFAR training for CDs and DPTs had
been insufficient: “In the past, people didn’t know enough of what to do other than to plan and
ask for more money.” The OGHH chief of programming and training (CPT) worked with post in
July 2011 to revise their FY 2011 PEPFAR implementation plan and to provide training to the
newly hired host country national HIV Coordinator. The post’s HIV coordinator commended the
CPT for being supportive and working closely with him on the FY 2012 implementation plan.
The CPT described the post’s PEPFAR program as solid and noted that the post has a realistic
budget and that the post is prudently applying their carryover which allows them some cushion
for currency fluctuations or cost of living increases. 17




17
  For appropriated funds, if there are currency fluctuations, a special fund will cover differences; however with
PEPFAR, this is not the case.


Final Program Evaluation Report: Peace Corps/Uganda                                                                 26
                OBJECTIVE, SCOPE, AND METHODOLOGY
The purpose of the Office of Inspector General (OIG) is to prevent and detect fraud, waste,
abuse, and mismanagement and to promote economy, effectiveness, and efficiency in
government. In February 1989, the Peace Corps OIG was established under the Inspector
General Act of 1978 and is an independent entity within the Peace Corps. The Inspector General
(IG) is under the general supervision of the Peace Corps Director and reports both to the Director
and Congress.

The Evaluation Unit within the Peace Corps OIG provides senior management with independent
evaluations of all management and operations of the Peace Corps, including overseas posts and
domestic offices. OIG evaluators identify best practices and recommend program improvements
to comply with Peace Corps policies.

The OIG Evaluation Unit announced its intent to conduct an evaluation of the post on August 11,
2011. For post evaluations, we use the following researchable questions to guide our work:

•   To what extent has post developed and implemented programs to increase host country
    communities’ capacity?
•   Does training prepare Volunteers for Peace Corps service?
•   Has the post provided adequate support and oversight to Volunteers?
•   Are post resources and agency support effectively aligned with the post’s mission and agency
    priorities?
•   Is the post able to adequately administer the PEPFAR program, support Volunteers, and meet
    its PEPFAR objectives?

The evaluator conducted the preliminary research portion of the evaluation from August 11-
September 23, 2011. This research included review of agency documents provided by
headquarters and post staff; interviews with management staff representing the Africa region,
OGHH, the Office of Volunteer Support; and inquiries to the Office of Safety and Security, the
Office of Volunteer Recruitment and Selection (VRS), the Office of Programming and Training
Support, the Office of Intergovernmental Affairs and Partnerships, and the Office of Private
Sector Initiatives. After completing fieldwork, an additional interview was conducted with staff
from the Office of Safety and Security.

In-country fieldwork occurred from September 26 - October 18, 2011, and included interviews
with senior post staff in charge of programming, training, and support, the U.S. ambassador, U.S.
deputy chief of mission, the embassy regional security officer, the embassy PEPFAR
coordinator, the embassy PEPFAR communications officer, host country government ministry
officials and other project partners. In addition, we interviewed a stratified judgmental sample of
23 Volunteers (17 percent of Volunteers serving at the time of our visit) based on their length of
service, site location, project focus, gender, age, and ethnicity. An additional request for an
interview from a Volunteer not in the sample was accommodated.




Final Program Evaluation Report: Peace Corps/Uganda                                             27
This evaluation was conducted in accordance with the Quality Standards for Inspections, issued
by the Council of the Inspectors General on Integrity and Efficiency (CIGIE) (formerly the
President’s Council on Integrity and Efficiency). The evidence, findings, and recommendations
provided in this report have been reviewed by agency stakeholders affected by this review.


                               INTERVIEWS CONDUCTED
As part of this post evaluation, interviews were conducted with 24 Volunteers, 14 staff members
in-country, and 21 representatives from Peace Corps headquarters in Washington D.C., the U.S.
Embassy in Uganda, and key ministry officials. Volunteer interviews were conducted using a
standardized interview questionnaire, and Volunteers were asked to rate many items on a five-
point scale (1 = not effective, 3 = average effective, 5 = very effective). The analysis of these
ratings provided a quantitative supplement to Volunteers’ comments, which were also analyzed.
For the purposes of the data analysis, Volunteer ratings of “3” and above are considered
favorable. In addition, 17 out of 23 Volunteer interviews occurred at the Volunteers’ homes, and
we inspected 16 of these homes using post-defined site selection criteria. The period of review
for a post evaluation is one full Volunteer cycle (typically 27 months).

The following table provides demographic information that represents the entire Volunteer
population in Uganda; the Volunteer sample was selected to reflect these demographics.

                               Table 5. Volunteer Demographic Data
                                                                      Percentage of
                                  Project
                                                                       Volunteers
               Education: primary teacher training and                    22%
               community development
               Education: secondary school science and                     27%
               mathematics teaching
               Community Health                                           25%
               Economic Development                                       25%
                                                                      Percentage of
                                  Gender
                                                                       Volunteers
               Female                                                     53%
               Male                                                       47%
                                                                      Percentage of
                                    Age
                                                                       Volunteers
               25 or younger                                              61%
               26-29                                                      19%
               30-49                                                       8%
               50 and over                                                11%
               Source: Volunteer roster provided by post in August 2011.
               Note: Percentages may not total 100% due to rounding.

At the time of our field visit, the post had 34 staff positions. The post also employed 11
temporary training staff to assist with PST. We interviewed 14 staff members.


Final Program Evaluation Report: Peace Corps/Uganda                                            28
                    Table 6. Interviews Conducted with PC/Uganda Staff Members
                                  Position                       Status   Interviewed
           Country Director                                                   USDH                   X
           Director of Programming and Training                               USDH                   X
           Program Manager (3)                                                PSC*                   X
           Program Specialist (3)                                             PSC                    X 18
           HIV Coordinator                                                    PSC                    X
           Training Manager                                                   PSC                    X
           Assistant Training Manager                                         PSC
           Language and Cross Cultural Coordinator                            PSC                     X
           Programming and Training Administrative Assistant                  PSC
           Executive Assistant                                                PSC
           PCMO (3)                                                           PSC                     X
           Medical Administrative Assistant                                   PSC
           IT Specialist                                                      PSC
           Safety and Security Coordinator                                    PSC                     X
           Director of Management and Operations                              USDH                    X
           Receptionist                                                       PSC
           Cashier                                                            FSN*
           Financial Assistant                                                FSN
           Emergency Plan/PEPFAR Financial Assistant                          FSN
           Administrative Assistant                                           PSC
           General Services Officer                                           PSC
           Driver (6)                                                         PSC
           Janitor                                                            PSC
           Data as of October 2011. *PSC is personal services contractor; FSN is foreign service national.

Eighteen additional interviews were conducted during the preliminary research phase of the
evaluation, in-country fieldwork and follow-up work upon return to Peace Corps headquarters in
Washington, D.C.

                Table 7. Interviews Conducted with PC/Headquarters Staff, Embassy
                                 Officials and Key Ministry Officials
                                 Position                           Organization
             Regional Director                                            PC/Headquarters/AF Region
             Chief of Operations                                          PC/Headquarters/AF Region
             Chief of Programming and Training                            PC/Headquarters/AF Region
             Programming and Training Specialist                          PC/Headquarters/AF Region
             Country Desk Officer                                         PC/Headquarters/AF Region
             Chief Administrative Officer                                 PC/Headquarters/AF Region
             Regional Security Advisor                                    PC/Headquarters/AF Region
             Chief of Programming and Training                            PC/Headquarters/OGHH
             Director, Office of Medical Services                         PC/Headquarters/VS
             Peace Corps Safety and Security Officer – Kenya              PC/Headquarters/SS

18
     One Program Specialist was interviewed for her role as a grants coordinator.


Final Program Evaluation Report: Peace Corps/Uganda                                                          29
         Ambassador                                    U.S. Embassy in Uganda
         Charge d’Affaires                             U.S. Embassy in Uganda
         Regional Security Officer                     U.S. Embassy in Uganda
         PEPFAR Coordinator                            U.S. Embassy in Uganda
         PEPFAR Communications Officer                 U.S. Embassy in Uganda
         Chief of Party                                Sustainable Tourism in the
                                                       Albertine Rift (STAR)
         Assistant Commissioner, Secondary Education   Ministry of Education
         Assistant Commissioner, Primary Teachers      Ministry of Education
         Colleges
       Data as of October 2011.




Final Program Evaluation Report: Peace Corps/Uganda                                 30
                          LIST OF RECOMMENDATIONS
W E RECOMMEND:

1. That regional managers assess programmatic, Volunteer safety, and administrative gaps
   created by leadership turnover, identify where the post would benefit from regional or other
   headquarters resources or support, and develop a plan to implement those improvements.

2. That the post conduct annual and mid-year performance reviews in accordance with Peace
   Corps policy.

3. That the post document and communicate performance issues and development needs to
   employees.

4. That the country director ensure that all Volunteers know the location of their consolidation
   point.

5. That the country director require that the appropriate staff members review the accuracy and
   completeness of Volunteer site locator forms.

6. Peace Corps medical officers update the medical evacuation plan in accordance with Peace
   Corps Manual section 264.5.1.

7. That the country director ensure that all staff members are familiar with the medical
   evacuation plan in accordance with Peace Corps Manual section 264.5.2

8. That the Peace Corps safety and security officer review the post’s safety and security systems
   and recommend changes to ensure the post is in compliance with relevant agency policies.

9. That the country director and safety and security coordinator inform trainees and Volunteers
   of the importance of reporting crime incidents and of post and agency support available to
   victims of crime, including the services of the agency’s Victim’s Advocate.

10. That the post, with the support of the Peace Corps safety and security officer assess reasons
    crime incidents are not reported, and take steps to increase Volunteer crime incident
    reporting.

11. That the country director confirm that the regional security officer has access to the
    consolidated incident reporting system and is receiving notifications as appropriate.

12. That the post review its Volunteer transportation policy and make adjustments if necessary.

13. That the country director confirm that currently serving Volunteer sites have post-approved
    transportation options for work-related or other necessary travel.



Final Program Evaluation Report: Peace Corps/Uganda                                             31
14. That the country director ensure that Volunteer transportation options are assessed during site
    development and that Volunteers have post-approved transportation options for work-related
    or other necessary travel.

15. That the country director ensure that the site development process is collaborative and
    includes Peace Corps medical officer input into site identification criteria and approval of
    final Volunteer site assignments.

16. That the country director prioritize Peace Corps medical officer site visits to meet its policy
    that each Volunteer receives at least one medical site visit during service.

17. That the Peace Corps medical officers document and maintain a record of local resources
    available to support and supplement the health care program for all Volunteers, including
    those located upcountry.

18. That the director of programming and training conduct a project review of the education
    project with support from the region and the Office of Overseas Programming and Training
    Support and, if necessary, adjust the project plan and other project documents.

19. That the country director and the director of programming and training review and adjust as
    necessary programming staff’s job loads to ensure they are realistically distributed and
    effective.

20. That the post develop individual project plans for the community health and economic
    development projects.

21. That the post identify a national partner for the economic development project and develop
    memoranda of understanding to guide their relationship.

22. That the post develop project advisory committees for each of its projects.

23. That the post develop a comprehensive annual report for stakeholders that addresses all
    projects at post per the Indicator 1.1.1b definition.

24. That the country director and programming and training staff develop and implement a plan
    for technical training that is more practical and relevant to Volunteer assignments.

25. That the training manager improve performance reporting training for Volunteers.

26. That the post review the training of trainers and determine if it is a sufficient orientation for
    trainers who are new to the Peace Corps.




Final Program Evaluation Report: Peace Corps/Uganda                                                 32
APPENDIX A


                                LIST OF ACRONYMS
 AMCS                    Administrative Management Control Survey
 AVS                     Annual Volunteer Survey
 CD                      Country Director
 CSHPP                   Characteristics and Strategies of a High Performing Post
 COS                     Close of Service
 CIRS                    Consolidated Incident Reporting System
 DMO                     Director of Management and Operations
 DPT                     Director of Programming and Training
 DRC                     Democratic Republic of Congo
 EAP                     Emergency Action Plan
 FITU                    Focus in and Train Up
 FSN                     Foreign Service National
 FY                      Fiscal Year
 ICT                     Information Communications Technology
 IPBS                    Integrated Planning and Budget System
 IST                     In-Service Training
 MOU                     Memorandum of Understanding
 MST                     Mid-service Training
 NGO                     Nongovernmental Organizations
 OIG                     Office of the Inspector General
 OMS                     Office of Medical Services
 OPATS                   Overseas Programming and Training Support
 PAC                     Project Advisory Council
 PAR                     Performance and Accountability Report
 PCM                     Peace Corps Manual
 PCMO                    Peace Corps Medical Officer
 PCPP                    Peace Corps Partnership Program
 PCRV                    Peace Corps Response Volunteer
 PCSSO                   Peace Corps Safety and Security Officer
 PM                      Program Manager
 PS                      Project Specialist
 PSC                     Personal Services Contractor
 PST                     Pre-Service Training
 RSO                     Regional Security Officer
 SLF                     Site Locator Form
 SPA                     Small Project Assistance
 SSC                     Safety and Security Coordinator
 TDE                     Training Design and Evaluation
 TG                      Medical Technical Guideline
 ToT                     Training of Trainers
 VAC                     Volunteer Advisory Council
 VAST                    Volunteer Activities Support and Training
 VAD                     Volunteer Assignment Description
 VRF                     Volunteer Report Form
 USDH                    U.S. Direct Hire



Final Program Evaluation Report: Peace Corps/Uganda                                 33
APPENDIX B


             AGENCY'S RESPONSE TO THE PRELIMINARY REPORT




Final Program Evaluation Report: Peace Corps/Uganda        34
APPENDIX B




Final Program Evaluation Report: Peace Corps/Uganda   35
APPENDIX B




Final Program Evaluation Report: Peace Corps/Uganda   36
APPENDIX B




Final Program Evaluation Report: Peace Corps/Uganda   37
APPENDIX B




Final Program Evaluation Report: Peace Corps/Uganda   38
APPENDIX B




Final Program Evaluation Report: Peace Corps/Uganda   39
APPENDIX B




Final Program Evaluation Report: Peace Corps/Uganda   40
APPENDIX B




Final Program Evaluation Report: Peace Corps/Uganda   41
APPENDIX B




Final Program Evaluation Report: Peace Corps/Uganda   42
APPENDIX B




Final Program Evaluation Report: Peace Corps/Uganda   43
APPENDIX B




Final Program Evaluation Report: Peace Corps/Uganda   44
APPENDIX B




Final Program Evaluation Report: Peace Corps/Uganda   45
APPENDIX B




Final Program Evaluation Report: Peace Corps/Uganda   46
APPENDIX B




Final Program Evaluation Report: Peace Corps/Uganda   47
APPENDIX C



                                   OIG COMMENTS

Management concurred with all 26 recommendations. Based on the documentation provided, we
closed seven recommendations: numbers 2-5, 11, 24, and 25. In its response, management
described actions it is taking or intends to take to address the issues that prompted each of our
recommendations. We wish to note that in closing recommendations, we are not certifying that
the agency has taken these actions or that we have reviewed their effect. Certifying compliance
and verifying effectiveness are management’s responsibilities. However, when we feel it is
warranted, we may conduct a follow-up review to confirm that action has been taken and to
evaluate the impact.

19 recommendations, numbers 1, 6-10, 12-23, and 26 remain open. OIG will review and
consider closing recommendations 1, 6-10, 12-16, 18-23 and 26 when the documentation
reflected in the agency’s response to the preliminary report is received. For recommendation 17,
additional documentation is requested. This recommendation remains open pending confirmation
from the chief compliance officer that the documentation reflected in the OIG analysis below is
received.

17: That the Peace Corps medical officers document and maintain a record of local
resources available to support and supplement the health care program for all Volunteers,
including those located upcountry.

       Concur. PC/Uganda Medical Unit developed a document recording local resources
       available to support and supplement the health care program for all Volunteers and tasked
       the DSRs to verify and complete this information for upcountry Volunteer sites quarterly.
       The document was presented at the March 2012 DSR Workshop. The Volunteer
       community welcomed the initiative and was grateful PC/Uganda took this proactive
       measure to compile essential information on quality medical services/health care access
       locally to address Volunteer well-being and their safety and security.

       Additionally, with feedback from OMS, a standardized form to assess health facilities has
       been shared and will be used in conducting site visits to Volunteers.

       Documents submitted:
       • PCMO List, Health Centers and Clinics in Uganda
       • Healthcare Facility Assessment Form

       Status and Timeline for Completion:
       Completed, May 2012

       OIG Analysis: We acknowledge the post’s efforts to address this recommendation by
       utilizing the Volunteer community as resources due to their proximity to sites and
       expertise of local areas. However, we encourage post to consider whether the added
       responsibilities and nature of responsibilities for the DSR is a reasonable expectation for


Final Program Evaluation Report: Peace Corps/Uganda                                              48
APPENDIX C


       a Volunteer. Please provide additional documentation that demonstrates the approximate
       workload expectation per DSR, for example, how many clinics would a DSR assess on a
       quarterly basis, your assessment of whether the additional responsibilities would impact
       the Volunteer’s job assignment, and the extent to which staff will provide oversight and
       verify the information collected by DSRs. Please also provide clarification on what is
       meant by the DSR responsibility of “assist PCMO as needed in the event of a medical
       crisis” as listed in the PCV DSR Statement of Responsibilities.




Final Program Evaluation Report: Peace Corps/Uganda                                          49
APPENDIX D


              PROGRAM EVALUATION COMPLETION AND
                        OIG CONTACT

PROGRAM EVALUATION            This program evaluation was conducted under the
COMPLETION                    direction of Jim O’Keefe, Assistant Inspector General for
                              Evaluations, and by Evaluator Susan Gasper. Additional
                              contributions were made by Heather Robinson.




                              Jim O’Keefe
                              Assistant Inspector General for Evaluations


OIG CONTACT                   Following issuance of the final report, a stakeholder
                              satisfaction survey will be distributed. If you wish to
                              comment on the quality or usefulness of this report to help
                              us improve our products, please e-mail Jim O’Keefe,
                              Assistant Inspector General for Evaluations and
                              Inspections, at jokeefe@peacecorps.gov, or call (202)
                              692-2904.




Final Program Evaluation Report: Peace Corps/Uganda                                         50
Help Promote the Integrity, Efficiency, and
     Effectiveness of the Peace Corps
Anyone knowing of wasteful practices, abuse, mismanagement,
fraud, or unlawful activity involving Peace Corps programs or
personnel should call or write the Office of Inspector General.
    Reports or complaints can also be made anonymously.




                      Contact OIG

                                Hotline:
       U.S./International:       202.692.2915
       Toll-Free (U.S. only):    800.233.5874

       Email:                    OIG@peacecorps.gov
       Web Form:                 www.peacecorps.gov/OIG/ContactUs

       Mail:                     Peace Corps Office of Inspector General
                                 P.O. Box 57129
                                 Washington, D.C. 20037-7129

                   Main Office: 202.692.2900
